No. 19In the

Supreme Court of the United States
JEREMY J. WALKER,
Petitioner,
v.
AMERIPRISE FINANCIAL
SERVICES, INCORPORATED,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

Brian D. Esenwein
Cotten Schmidt, LLP
100 Energy Way, Suite 2000
Fort Worth, Texas 76102
(817) 338-4500

Kirsten M. Castañeda
Counsel of Record
A lexander Dubose
& Jefferson LLP
4925 Greenville Avenue,
Suite 510
Dallas, Texas 75206
(214) 369-2358
kcastaneda@adjtlaw.com

Counsel for Petitioner
February 11, 2020
294018

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
The Financial Industry Regulatory Authority
(“FINRA”) requires that its members (such as Ameriprise)
and associated persons (such as Walker) submit their
disputes to arbitration. The mandatory arbitrations are
governed by FINRA’s Code of Arbitration Procedure
for Industry Disputes (“Industry Code”). Industry Code
Rule 13101 provides that, when a dispute is submitted
to mandatory arbitration, the Code is incorporated by
reference into arbitration agreement. Moreover, in Howsam
v. Dean Witter Reynolds, Inc., 537 U.S. 79, 82, 123 S. Ct.
588 (2002), this Court held that an agreement to arbitrate
“in accordance with the NASD’s ‘Code of Arbitration
Procedure’” (which is the predecessor to the FINRA
Industry Code) “effectively incorporated the NASD
Code into the parties’ agreement.” The Second, Fourth,
Eighth, Ninth, and Eleventh Circuits also have held that
the FINRA code or its predecessor National Association
of Securities Dealers (“NASD”) code provides the terms
of a FINRA (or NASD) member’s agreement to arbitrate.
Yet, in the opinion below, the Fifth Circuit held
that FINRA Industry Code Rule 13504 is not a term of
Walker’s and Ameriprise’s arbitration agreement. As
a result, the Fifth Circuit refused to review whether
FINRA arbitrators exceeded their powers under Rule
13504. The questions presented are:
1. Does the FINRA Industry Code supply the terms
of the arbitration agreement governing a mandatory
arbitration between a member (such as Ameriprise) and
associated person (such as Walker)?

ii
2. Is FINRA Industry Code Rule 13504 a term in such
arbitration agreements, such that an award exceeding the
arbitrator’s powers under the rule is subject to review
under 9 U.S.C. §10(a)(4)?

iii
CORPORATE DISCLOSURE STATEMENT
This statement is provided in accordance with Rule
29.5 based on information provided by Ameriprise
Financial Services, Inc. to the Securities and Exchange
Commission:
Ameriprise Financial Services, Inc. is a wholly owned
subsidiary of AMPF Holding Corp, which is a wholly
owned subsidiary of Ameriprise Financial, Inc. Walker is
unaware of any parent or publicly held company owning
10% or more of Ameriprise Financial, Inc.’s stock.

iv
STATEMENT OF RELATED CASES
• Walker v. Ameriprise Financial Services, Inc., Civil
No. 3:18-cv-01675-M, U. S. District Court for the
Northern District of Texas. Judgment entered Nov.
29, 2018.
• Wa l k e r v. Am e r ip r i se Fin a n c i a l Se r v i c e s ,
Incorporated, No. 18-11641, U.S. Court of Appeals
for the Fifth Circuit. Judgment entered Oct. 9, 2019.
Rehearing (panel and en banc) denied Nov. 13, 2019.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
STATEMENT OF RELATED CASES . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
STATUTORY PROVISIONS
AND RULES INVOLVED  . . . . . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
A. Legal background  . . . . . . . . . . . . . . . . . . . . . . . . . 5
B. Factual and procedural background . . . . . . . . . . 7
C. Circuit court decision  . . . . . . . . . . . . . . . . . . . . . . 9
REASONS FOR GRANTING THE PETITION . . . . 10

vi
Table of Contents
Page
A. The FINRA Industry Code supplies the terms
of the mandatory arbitration agreements
governing hundreds of thousands of
financial advisors. . . . . . . . . . . . . . . . . . . . . . . . . . 10
B. The circuit court opinion circumvents this
Court’s precedent and defies the FAA. . . . . . . . 12
C. Excluding FINRA Industry Code rules from
the arbitration agreement deprives litigants
of a right under FAA section 10(a)(4) to judicial
review of FINRA arbitration awards. . . . . . . . . 14
D. This Court has exercised its jurisdiction
where, as here, a circuit court’s holding
obstructs access to justice by depriving a
claimant of an adjudication on the merits.  . . . .  17
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

vii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR T H E FI F T H CIRCU I T, FILED
OCTOBER 9, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A PPEN DI X B — OR DER OF T H E
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
T EX A S , DA LL A S DI V I SION FILED
NOVEMBER 29, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . 8a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT,
FILED NOVEMBER 13, 2019  . . . . . . . . . . . . . . . . 18a
APPENDIX D — RELEVANT STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21a

viii
TABLE OF CITED AUTHORITIES
Page
CASES:
Am. Express Co. v. Italian Colors Rest.,
570 U.S. 228 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Ankenbrandt v. Richards,
504 U.S. 689 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 30
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Behrens v. Pelletier,
516 U.S. 299 (1996) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 19
Berthel Fisher & Co. Fin. Servs., Inc. v. Larmon,
695 F.3d 749 (8th Cir. 2012) . . . . . . . . . . . . . . . . .  11, 12, 14
Brook v. Peak Int’l, Ltd.,
294 F.3d 668 (5th Cir. 2002) . . . . . . . . . . . . . . . . . . . . . . . 13
Brown v. Felsen,
442 U.S. 127 (1979) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 20
Cooper v. WestEnd Capital Mgmt., L.L.C.,
832 F.3d 534 (5th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . . 16
Doscher v. Sea Port Group Secs., LLC,
832 F.3d 372 (2d Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . . . 21
Goldman, Sachs & Co. v. City of Reno,
747 F.3d 733 (9th Cir. 2014) . . . . . . . . . . . . . . . . .  11, 12, 14

ix
Cited Authorities
Page
Hall St. Assocs., L.L.C. v. Mattel, Inc.,
552 U.S. 576 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Hetzel v. Prince William Cty.,
523 U.S. 208 (1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 19
Howsam v. Dean Witter Reynolds, Inc.,
537 U.S. 79 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Hughes v. Rowe,
449 U.S. 5 (1980) (per curiam) . . . . . . . . . . . . . . . . . . 3, 20
Int’l Paper Co. v.
United Paperworkers Int’l Union,
215 F.3d 815 (8th Cir. 2000) . . . . . . . . . . . . . . . . . . . . . . . 16
Kyocera Corp. v.
Prudential-Bache Trade Servs., Inc.,
341 F.3d 987 (9th Cir. 2003) . . . . . . . . . . . . . . . . . . . . . . . 21
McDonald v. City of West Branch,
466 U.S. 284 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 20
MONY Secs. Corp. v. Bornstein,
390 F.3d 1340 (11th Cir. 2004) . . . . . . . . . . . . . . . . . . 12, 14
Muskegon Cent. Dispatch 911 v. Tiburon, Inc.,
462 F. App’x 517 (6th Cir. 2012) . . . . . . . . . . . . . . . . . . . . 16
Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp.,
559 U.S. 662 (2010) . . . . . . . . . . . . . . . . . . . . . . . . . . .  13, 17

x
Cited Authorities
Page
UBS Fin. Servs., Inc. v. W.V. Univ. Hosps., Inc.,
660 F.3d 643 (2d Cir. 2011) . . . . . . . . . . . . . . . . . . . . . 11, 14
Volt Info. Scis., Inc. v. Bd. of Trustees of Leland
Stanford Junior Univ.,
489 U.S. 468 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
In re Wal-Mart Wage
& Hour Employment Practices Litig.,
737 F.3d 1262 (9th Cir. 2013) . . . . . . . . . . . . . . . . . . . . . . 21
Washington Square Sec. Inc. v. Aune,
385 F.3d 432 (4th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 12, 14
STATUTES AND RULES
9 U.S.C. § 10(a)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
9 U.S.C. § 10(a)(4) . . . . . . . . . . . . . . . . . . . . . . .  4, 10, 14, 16
9 U.S.C. § 16(a)(1)(D)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
28 U.S.C. § 1332  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
FINRA Industry Code Rule 13101  . . . . . . . . . . . . . . . 1, 4
FINRA Industry Code Rule 13101(a)  . . . . . . . . . . . . . . 12

xi
Cited Authorities
Page
FINRA Industry Code Rule 13101(b) . . . . . . . . . . . . . . 12
FINRA Industry Code Rule 13504 . . . . . . . . . . . . . . . . 10
FINRA Industry Code Rule 13504(a)(6)(C) . . . . . . 4, 6, 9
TREATISES AND LEGAL COMMENTARY
C om ment s of C om m’r Lu i s A . A g u i l a r,
Outmanned and Outgunned: Fighting on
Behalf of Investors Despite Efforts to Weaken
Investor Protections, Annual NASAA/SEC
19(d) Conference (Washington, D.C., April
16, 2013), available at https://www.sec.gov/
News/Speech/Detail/Speech/1365171515400 . . . . . . . 1
FINRA Code of Arbitration Procedure for Customer
Disputes, https://www.finra.org/arbitrationme d i at ion / pr i nt able - c o de - a rbit r at ion procedure-12000 . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12
FINRA, Current Registration Statistics for
December 2019, available at https://www.finra.
org/media-center/statistics#currentmonth . . . . .  1, 10
FINRA, Discussion Paper—FINRA Perspectives
on Customer Recovery (Feb. 8, 2018), available at
https://www.finra.org/sites/default/files/finra_
perspectives_on_customer_recovery.pdf . . . . . . . . . . 1

xii
Cited Authorities
Page
FINRA, Dispute Resolution Statistics, https://
w w w. f i n r a .or g /a r bit r at ion - m e d i at ion /
dispute-resolution-statistics (last visited on
Feb. 10, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
FINRA Office of Dispute Resolution Arbitrator’s
G u ide at 9 ( F I N R A 2 018), a v a i l a b l e
at http://w w w.finra.org/sites/default/files
/arbitrators-ref-guide.pdf . . . . . . . . . . . . . . . . . . . . . . . 6

1
INTRODUCTION
To work in the securities industry, Walker and over
600,000 other financial advisors have traded their right
to a jury trial for a mandatory FINRA arbitration.
FINRA, Current Registration Statistics for December
2019 (reporting 624,996 registered representatives),
available at https://w w w.f inra.org /media-center/
statistics#currentmonth. To open an account with a
brokerage firm, almost all customers must trade the
same rights. FINRA, Discussion Paper—FINRA
Perspectives on Customer Recovery at 12 & n.2 (Feb. 8,
2018), available at https://www.finra.org/sites/default/
files/finra_ perspectives_on_customer_recovery.pdf;
Comments of Comm’r Luis A. Aguilar, Outmanned and
Outgunned: Fighting on Behalf of Investors Despite
Efforts to Weaken Investor Protections, Annual NASAA/
SEC 19(d) Conference (Washington, D.C., April 16, 2013),
available at https://www.sec.gov/News/Speech/Detail/
Speech/1365171515400.
Agreements regarding mandatory FINRA arbitration
incorporate the applicable FINRA rules. See Industry
Code Rule 13101; Howsam v. Dean Witter Reynolds, Inc.,
537 U.S. 79, 82 (2002). Incorporation of the rules as terms
of the parties’ agreement is critical in: (1) circumscribing
the arbitrators’ authority; and (2) affording due process
through judicial review when the arbitrators exceed that
authority.
When Walker tried to submit counterclaims in
a FINRA arbitration initiated by Ameriprise, the
arbitrators refused to adjudicate them. When Walker
submitted those claims and additional claims in a

2
subsequent FINRA arbitration he initiated against
Ameriprise, the arbitrators dismissed them, invoking
a FINRA rule allowing dismissal of claims previously
adjudicated on the merits. When Walker sought review
of the district court’s order confirming the arbitrators’
dismissal, the Fifth Circuit refused to examine whether
the arbitrators had exceeded their powers. The Fifth
Circuit based its refusal on the erroneous conclusion that
the FINRA rules are not incorporated into the parties’
arbitration agreement.
The Fifth Circuit’s decision deprives Walker of
the review to which he is entitled under the Federal
Arbitration Act, robs Walker of the certainty that the
FINRA rules prescribe and circumscribe the arbitrators’
powers, and denies Walker the opportunity to arbitrate
the merits of his claims against Ameriprise. Applying
the Fifth Circuit’s decision to the mandatory arbitrations
between FINRA members and any of the hundreds of
thousands of financial advisors or millions of customers
will magnify the injustices wrought in this case.
The Fifth Circuit’s holding that the FINRA rules are
not terms in the parties’ arbitration agreement conflicts
with opinions of this Court and the other circuit courts,
recognizing that the FINRA rules are incorporated into
the parties’ arbitration agreement. The Fifth Circuit’s
holding injects uncertainty into the FINRA arbitration
process, not only in the Fifth Circuit but in other circuits
that have not yet addressed the issue. Subjecting financial
advisors and customers to the risk that they will be
deprived of important rights under FAA section 10(a)
(4) to judicial review of FINRA arbitration awards is
unacceptable. Those statutory rights are essential to

3
affording due process, particularly when the financial
advisors and customers are required to arbitrate disputes
before FINRA arbitrators under the FINRA arbitration
rules.
When a circuit court creates a roadblock, even in an
unpublished opinion, that deprives claimants of effective
access to the courts and due process, this Court has
exercised its jurisdiction to restore those rights and
restore order to federal jurisprudence.1 Having twice
attempted to submit his claims to FINRA arbitration
and having sought the limited judicial review available
under the FAA, Walker faces a situation in which no
arbitrator has ever adjudicated the merits of his claims
against Ameriprise and no appellate court has ever
reviewed whether the FINRA arbitrators exceeded their
powers. The opinion below is wrong, depriving Walker
of his statutory right to review is insupportable, and the
resulting uncertainty inflicted on all those required to
submit their disputes to FINRA arbitration is untenable.
OPINIONS BELOW
The Fifth Circuit’s decision is available at 787 F.
App’x 211 and reprinted at App.1a-7a. The orders denying
rehearing (panel and en banc) are reprinted at App.18a20a. The district court’s opinion confirming the FINRA
arbitrator’s dismissal is reprinted at App.8a-17a.
1. See, e.g., Hetzel v. Prince William Cty., 523 U.S. 208, 208-10
(1998) (per curiam); Behrens v. Pelletier, 516 U.S. 299, 302-05 (1996);
Ankenbrandt v. Richards, 504 U.S. 689, 691-92 (1992); McDonald v.
City of West Branch, 466 U.S. 284, 285-87 (1984); Hughes v. Rowe,
449 U.S. 5, 6-7 (1980) (per curiam); Brown v. Felsen, 442 U.S. 127,
128-31 (1979).

4
JURISDICTION
The Fifth Circuit issued its opinion on October 9,
2019. App.1a. Panel and en banc rehearing were denied
on November 13, 2019 (App.19a-20a), making this petition
due on February 11, 2020. This Court has jurisdiction
under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS
AND RULES INVOLVED
FINRA Industry Code Rule 13504(a)(6)(C) is
reproduced at App.21a-22a. In addition, FINRA Industry
Code Rule 13101 provides:
13101. Applicability of Code and
Incorporation by Reference
(a) Applicability of Code
The Code applies to any dispute that is
submitted to arbitration under the Code
pursuant to Rules 13200, 13201, or 13202.
(b) Incorporation by Reference
When a dispute is submitted to arbitration
under the Code pursuant to an arbitration
agreement, the Code is incorporated by
reference into the agreement.
This case also involves 9 U.S.C. § 10(a)(4), which
provides:

5
(a) In any of the following cases the United
States court in and for the district wherein the
award was made may make an order vacating
the award upon the application of any party to
the arbitration—
(1) where the award was procured by corruption,
fraud, or undue means;
(2) where there was evident partiality or
corruption in the arbitrators, or either of them;
(3) where the arbitrators were guilty of
misconduct in refusing to postpone the hearing,
upon sufficient cause shown, or in refusing
to hear evidence pertinent and material to
the controversy; or of any other misbehavior
by which the rights of any party have been
prejudiced; or
(4) where the arbitrators exceeded their powers,
or so imperfectly executed them that a mutual,
final, and definite award upon the subject
matter submitted was not made.
STATEMENT OF THE CASE
A. Legal background
Invoking the power to dismiss claims previously
adjudicated on the merits as memorialized in an earlier
award, FINRA arbitrators dismissed claims by Walker
that had never been adjudicated on the merits and for
which no adjudication had been memorialized. The

6
dismissal exceeded the arbitrators’ powers and also
contravenes guiding FINRA arbitration principles:
Since arbitration is the primary means of
resolving disputes in the securities industry, the
public perception of its fairness is of paramount
importance. Arbitrators appointed to resolve
securities controversies must continue to meet
the challenge of maintaining fair and orderly
arbitration proceedings.
FINRA Office of Dispute Resolution Arbitrator’s Guide at
9 (FINRA 2018), available at http://www.finra.org/sites/
default/files/arbitrators-ref-guide.pdf.
Rules are essential to the orderly operation of a
FINRA arbitration. And requiring the arbitrators
to respect the rules’ limits is essential to a FINRA
arbitration’s fairness.
Ameriprise, a FINRA member, is a broker-dealer
providing wealth management and securities trading/
sales. ROA.5. Walker, as a licensed stockbroker, was
a registered representative with Ameriprise, i.e., an
“associated person.” Id. Pursuant to FINRA Rule 13200
and his Associate Financial Advisor Agreement, Walker
was required to arbitrate his claims against Ameriprise
under the FINRA Industry Code. ROA.52, 59, 241.
FINRA Rule 13504(a)(6)(C) (the “Dismissal Rule”)
affords arbitrators the power to dismiss a claim that meets
five required elements: (1) the non-moving party previously
brought a claim; (2) regarding the same dispute; (3) against
the same party; (4) that was fully and finally adjudicated

7
on the merits; and (5) the ruling was memorialized in an
order, judgment, award, or decision. App.21a-22a. The
Industry Code requires FINRA arbitrators to comply
with the rules in conducting the arbitration and properly
carrying out their duties. ROA.241.
B. Factual and procedural background
1. This case does not involve a typical motion to vacate
an arbitration award. This case involves two arbitration
proceedings and two distinct arbitration awards. Yet, as
of this petition’s filing, Walker has been allowed to present
the merits of his claims in zero arbitrations.
2. After Walker resigned as a registered representative
of Ameriprise, the Ameriprise Compliance Department
certified to FINRA that Walker had not violated any rules
or regulations, had not wrongfully taken any property, and
had not violated any FINRA rules or regulations. ROA.6869, 230-33, 523-25. However, Ameriprise, its franchise
owner (“Miller”), and Walker later disputed whether
27 client files went missing the day Walker resigned or
simply had been destroyed after conversion to electronic
format. ROA.85-88, 108, 142. Ameriprise and Miller filed
an arbitration seeking injunctive relief against Walker.
ROA.86-88, 142. Miller also sought monetary damages
and attorneys’ fees. Id.
The panel in this first arbitration (“2015 Panel”) held
an injunction hearing and enjoined Walker from soliciting
certain Ameriprise clients. ROA.21, 90-95. In connection
with a later hearing to consider Miller’s claims for monetary
damages and attorneys’ fees, Walker moved for leave to
bring permissive counterclaims against Ameriprise for

8
civil conspiracy, fraud, and unjust enrichment. ROA.98,
117. Ameriprise opposed Walker’s request. ROA.123-29.
The 2015 Panel granted Ameriprise protection and denied
Walker leave. ROA.131-33. FINRA refunded the filing fee
Walker had paid in connection with the counterclaims he
sought leave to file (ROA.267), depriving the 2015 Panel
of any jurisdiction to decide them.
Having prohibited Walker from submitting his
counterclaims against Ameriprise for adjudication, the
2015 Panel limited evidence in the second hearing to
Miller’s claims for monetary damages and attorneys’
fees. ROA.133. The 2015 Panel allowed Walker to assert
defenses in bar or mitigation. Id. But at the second hearing,
Ameriprise had no pending claims for relief to which
defenses could be asserted, and Walker did not seek actual
damages (as opposed to attorneys’ fees) against Ameriprise
or Miller. ROA.212-14. In a sworn declaration, Ameriprise
and Miller’s lawyer described Walker’s counterclaims as
“now excluded” from the arbitration and cited her work
excluding those counterclaims as justification for the
requested fees. ROA.435-37. In its final award providing
for monetary damages and attorneys’ fees to Miller, the
2015 Panel confirmed that, although Walker could assert
defenses to Miller’s monetary damages claims, he was not
permitted to assert counterclaims against Ameriprise
(which had not sought any monetary damages or attorneys’
fees) in the arbitration. ROA.144, 844.
3. In 2017, Walker filed a FINRA arbitration against
Ameriprise. ROA.151-204. Walker asserted the three
claims the 2015 Panel had excluded from the previous
arbitration and added eleven new claims (together
the “Walker Claims”). ROA.202. Walker sought from

9
Ameriprise $6,750,000.00 in compensatory and punitive
damages that the 2015 Panel had refused to consider or
address. Compare id. with ROA.144-45.
Ameriprise moved to dismiss the Walker Claims
pursuant to Rule 13504(a)(6)(C). ROA.206-25. The 2017
Panel issued an award (the “2017 Award”) dismissing all
fourteen Walker Claims and imposing monetary sanctions
on Walker. ROA.235-39. Not only did this dismissal exceed
the arbitrators’ powers under the Dismissal Rule, but
also it required the 2017 Panel to rewrite the 2015 Award.
The 2015 Award did not fully and finally adjudicate any of
Walker’s claims against Ameriprise on the merits, nor did
it memorialize such an adjudication. App.21a-22a.
4. Walker filed a motion to vacate in the district
court. ROA.5-10. The district court had jurisdiction under
28 U.S.C. § 1332 because there is complete diversity
between the parties and the amount in controversy
exceeds $75,000.00. ROA.5-6, 235. Walker contended
the arbitrators exceeded their powers in dismissing the
2017 FINRA arbitration; he also asserted arbitrator
misconduct. ROA.7-8. The district court denied Walker’s
motion to vacate and confirmed the 2017 Award. App.8a.
C. Circuit court decision
Walker appealed the confirmation of the 2017 Award.
ROA.897-98. The Fifth Circuit had jurisdiction under 9
U.S.C. § 16(a)(1)(D) over the timely appeal from the district
court’s order denying vacatur of an arbitration award.
ROA.882, 896-97. On appeal, the circuit court reviewed
the merits of Walker’s arbitrator-misconduct challenge
under FAA section 10(a)(3). App.6a.

10
However, the Fifth Circuit refused to review the
merits of Walker’s exceeded-their-powers challenge
under FAA section 10(a)(4). App.7a. The court decided as
a threshold matter that Rule 13504 was not a term of the
parties’ arbitration agreement. Id. The court concluded
Walker failed to meet his burden to obtain vacatur under
section 10(a)(4) because his Rule 13504 issue “fails to
even argue that the panel violated the agreement to
arbitrate….” Id.
REASONS FOR GRANTING THE PETITION
A. The FINRA Industry Code supplies the terms of
the mandatory arbitration agreements governing
hundreds of thousands of financial advisors.
FINRA arbitration is a unique construct, but it affects
hundreds of thousands of financial advisors and other
financial industry workers. The Fifth Circuit’s treatment
of the FINRA Industry Code as procedural, rather than a
substantive part of the parties’ arbitration agreement, is a
mistake with serious and far-reaching implications, from
inconsistency in the case law to deprivation of due process.
In order to work in the securities industry, hundreds
of thousands of financial advisors2 have forgone their right
to a jury trial in favor of mandatory FINRA arbitration.
Decisions of this Court and the Second, Fourth, Eighth,
Ninth, and Eleventh Circuits have held that the Industry
2. FINRA, Current Registration Statistics for December 2019
(reporting 624,996 registered representatives), available at https://
www.finra.org/media-center/statistics#currentmonth (last visited
Feb. 10, 2020).

11
Code (whether the current FINRA version or the
predecessor NASD version) supplies the terms of the
resulting arbitration agreement. The Fifth Circuit’s
contrary decision allows arbitrators to exceed their
powers under the terms of FINRA arbitration agreements
while depriving financial advisors (and broker-dealers, for
that matter) of the judicial review expressly allowed by
the FAA when arbitrators exceed their powers.
In Howsam, this Court addressed the predecessor
NASD Code and Submission Agreement. 537 U.S. at 82.
The Court held that the Submission Agreement, specifying
that the “present matter in controversy” was submitted
for arbitration “in accordance with the NASD’s ‘Code of
Arbitration Procedure’” (id.) “effectively incorporated
the NASD Code into the parties’ agreement.” Id. at 85.
The FINRA Submission Agreement that Ameriprise
and Walker signed specifies that “the present matter in
controversy” is submitted for arbitration “in accordance
with the FINRA By-Laws, Rules, and Code of Arbitration
Procedure.” ROA.864; see also ROA.235 (reciting
agreements were signed).
Likewise, the Second, Fourth, Eighth, Ninth, and
Eleventh Circuits have held that the FINRA code or its
predecessor NASD code provides the terms of a FINRA
(or NASD) member’s agreement to arbitrate. See Berthel
Fisher & Co. Fin. Servs., Inc. v. Larmon, 695 F.3d 749, 752
(8th Cir. 2012) (holding that the FINRA code constitutes
an agreement to arbitrate); Goldman, Sachs & Co. v. City
of Reno, 747 F.3d 733, 739 & n.1 (9th Cir. 2014) (holding
that FINRA rule requiring member to arbitrate disputes
constituted agreement in writing under the Federal
Arbitration Act); UBS Fin. Servs., Inc. v. W.V. Univ.
Hosps., Inc., 660 F.3d 643, 649 (2d Cir. 2011) (holding

12
that FA A requires courts to enforce FINRA Code
provisions as an agreement to arbitrate); MONY Secs.
Corp. v. Bornstein, 390 F.3d 1340, 1342 (11th Cir. 2004)
(holding that the NASD Code constituted the arbitration
agreement); Washington Square Sec. Inc. v. Aune, 385
F.3d 432, 435 (4th Cir. 2004) (holding the NASD Code
constitutes a binding, written arbitration agreement under
the FAA). The Fifth Circuit’s decision that the Dismissal
Rule is not a term of the parties’ arbitration agreement
(App.7a) conflicts with Howsam and the opinions of other
circuit courts to have addressed this issue.
Indeed, that decision conflicts with the FINRA
Industry Code itself. Rule 13101(b) expressly provides
that, “[w]hen a dispute is submitted to arbitration under
the Code pursuant to an arbitration agreement, the Code
is incorporated by reference into the agreement.” And
Rule 13101(a) makes clear that Rule 13101(b)—and the
rest of the Code—applies to “any dispute that is submitted
to arbitration under the Code” pursuant to FINRA’s
mandatory arbitration requirements. There is no question
in this case that the claims dismissed by the 2017 Award
were submitted to mandatory FINRA arbitration under
the Code. Yet, the Fifth Circuit held that the Dismissal
Rule is not incorporated into the parties’ arbitration
agreement. Compare App.7a with Howsam, 537 U.S. at
82, 85 and Larmon, 695 F.3d at 752 and Goldman, 747
F.3d at 739 & n.1 and UBS, 660 F.3d at 649 and Bornstein,
390 F.3d at 1342 and Aune, 385 F.3d at 435.
B. The circuit court opinion circumvents this Court’s
precedent and defies the FAA.
By holding that the Dismissal Rule is not incorporated
as a term of a FINRA arbitration agreement, the Fifth

13
Circuit circumvented this Court’s precedent and defied
the FAA. In addition to Howsam’s specific holding that
predecessor NASD rules are incorporated into the parties’
arbitration agreement, this Court has held generally
that, pursuant to the FAA, “courts must ‘rigorously
enforce’ arbitration agreements according to their terms,”
including “‘the rules under which that arbitration will
be conducted . . . .’” Am. Express Co. v. Italian Colors
Rest., 570 U.S. 228, 233 (2013). The Court has emphasized
that “the FAA’s primary purpose” is to “ensur[e] that
private agreements to arbitrate are enforced according
to their terms.” Volt Info. Scis., Inc. v. Bd. of Trustees of
Leland Stanford Junior Univ., 489 U.S. 468, 479 (1989).
Accordingly, “the FAA requires courts to honor parties’
expectations.” AT&T Mobility LLC v. Concepcion,
563 U.S. 333, 351 (2011). The Fifth Circuit’s holding
avoids rigorous enforcement of the parties’ arbitration
agreement, violates the FAA’s primary purpose, and
scuttles the parties’ expectation that the Industry Code
circumscribes the FINRA arbitrators’ powers.
Moreover, the Fifth Circuit’s holding deprives parties
of even the narrow judicial review afforded by FAA section
10(a)(4) “where the arbitrators exceeded their powers . . .
.” 9 U.S.C. §10(a)(4). Arbitrators’ powers are circumscribed
by the arbitration agreement terms. See Brook v. Peak
Int’l, Ltd., 294 F.3d 668, 672 (5th Cir. 2002); cf. StoltNielsen S.A. v. AnimalFeeds Int’l Corp., 559 U.S. 662,
671-72 (2010) (holding arbitration award may be vacated as
exceeding arbitrator’s powers when arbitrator strays from
interpretation and application of arbitration agreement).
In a FINRA arbitration, the arbitrators’ powers are
circumscribed by the rules in the FINRA Code, which
are incorporated as terms in the parties’ arbitration

14
agreement. See Howsam, 537 U.S. at 82, 85; Larmon,
695 F.3d at 752; Goldman, 747 F.3d at 739 & n.1; UBS,
660 F.3d at 649; Bornstein, 390 F.3d at 1342; Aune, 385
F.3d at 435; but see App.7a. But under the Fifth Circuit’s
holding, a challenge that FINRA arbitrators exceeded
their powers under the Industry Code “fails to even argue
that the panel violated the agreement to arbitrate” and
will not support review under section 10(a)(4). App.7a.
C. Excluding FINRA Industry Code rules from the
arbitration agreement deprives litigants of a right
under FAA section 10(a)(4) to judicial review of
FINRA arbitration awards.
The Fifth Circuit refused to review the 2017 Award
under FAA section 10(a)(4) to determine whether the
FINRA arbitrators exceeded their powers under the
Dismissal Rule. Id. Applying the decision to other disputes
would deprive other associated persons—and FINRA
members, for that matter—of their right to seek vacatur
under section 10(a)(4) when FINRA arbitrators exceed the
limits of any Industry Code provisions that delineate their
powers. Similarly, applying the decision to the analogous
FINRA Consumer Code,3 which governs disputes between
a customer and a FINRA member or associated person,
would deprive customers of their right to judicial review
under FAA section 10(a)(4) when FINRA arbitrators
exceed their powers under the Consumer Code.
Reviewing the 2017 Award under section 10(a)(4) will
not require the Fifth Circuit to review the factual findings
3. FINRA Code of Arbitration Procedure for Customer
Disputes, https://www.finra.org/arbitration-mediation/printablecode-arbitration-procedure-12000 (last visited Feb. 10, 2020).

15
and merits of the arbitrators’ decision. If the 2017 Panel
had the power to dismiss Walker’s claims, that power
was conferred by the Dismissal Rule. The Dismissal Rule
conferred power to dismiss only claims for which the 2015
Award: (1) “fully and finally adjudicated on the merits”
the “claim[s] regarding the same dispute against the
same party”; and (2) “memorialize[s]” that adjudication.
App.21a-22a.
Although the 2017 Panel purported to apply the
Dismissal Rule, the 2015 Award contains no supportable
basis for their determination that the 2015 Award
adjudicated Walker’s claims against Ameriprise. The
2015 Award lists all issues in controversy in the 2015
arbitration. ROA.143 (“Case Summary”). It does not list
any claims by Walker against Ameriprise. Id. Although
the 2015 Award confirms that Walker “asserted various
affirmative defenses,” it also confirms that the 2015 Panel
prohibited Walker from asserting any counterclaims
against Ameriprise in the 2015 arbitration. ROA.143-44.
On its face, the 2015 Panel expressly and unambiguously
excluded Walker’s claims against Ameriprise (i.e.,
“counterclaims”) from the 2015 arbitration. ROA.144. On
its face, the 2015 Award expressly and unambiguously
refused to adjudicate Walker’s claims against Ameriprise
and memorialized that refusal. Compare ROA.143-44 with
App.21a-22a.
Likewise, there is no supportable basis for the
2017 Panel to have concluded that the 2015 Award
“memorializes” the adjudication of the Walker Claims
against Ameriprise. Compare ROA.142-49 with ROA.236.
Nowhere does the 2015 Award set forth what Walker’s
claims were or what adjudication was made of them. See

16
ROA.142-49. The 2017 Panel’s statement that the 2015
Award memorialized the adjudication of Walker’s claims
is contrary to the 2015 Award’s plain language and lacks
a supportable basis.
The 2017 Panel’s determination that the 2015 Award
adjudicated Walker’s claims against Ameriprise is not
rational. It is “so unfounded in reason” as to demonstrate
an “infidelity to the obligation of an arbitrator.” See
Cooper v. WestEnd Capital Mgmt., L.L.C., 832 F.3d 534,
545 (5th Cir. 2016) (stating standard). The arbitrators’
conclusion that the 2015 Award supports dismissal of the
2017 arbitration “utterly contort[s] the evident purpose
and intent” of the Dismissal Rule. Id.
By basing the 2017 Award on an interpretation of the
Dismissal Rule that is wholly baseless and completely
without reason, the 2017 Panel acted beyond the terms
of the parties’ arbitration agreement, exceeding their
powers. See Muskegon Cent. Dispatch 911 v. Tiburon, Inc.,
462 F. App’x 517, 524-25 (6th Cir. 2012). That the 2017 Panel
purported to apply the standards in the Dismissal Rule
does not preclude a conclusion that they exceeded their
powers. See Int’l Paper Co. v. United Paperworkers Int’l
Union, 215 F.3d 815, 817 (8th Cir. 2000). The standard the
2017 Panel applied to the 2015 Award was not susceptible
to the arbitrators’ interpretation. Id.
Because the 2015 Award provides no rational basis for
the arbitrators to conclude that the Walker Claims were
fully and finally adjudicated in the earlier arbitration, the
2017 Panel “effectively ‘dispense[d] [their] own brand of
industrial justice’” and their decision should be “vacated
under §10(a)(4) of the FA A on the ground that the

17
arbitrator ‘exceeded [his] powers . . . .” See Stolt-Nielsen,
559 U.S. at 671-72.
The 2017 Panel had no power to look behind the 2015
Award’s express exclusion of all claims by Walker against
Ameriprise. The Dismissal Rule does not empower a second
set of FINRA arbitrators to conduct a de novo review and
make an independent determination of whether a party
is attempting to re-litigate issues raised in a previous
arbitration. See App.21a-22a. Contrary to broader, commonlaw standards of res judicata, the Dismissal Rule limits the
arbitrators’ dismissal powers to claims that were fully and
finally adjudicated on the merits in a prior arbitration where
that adjudication is memorialized in an order, judgment,
award, or decision. Id.
Ameriprise, not Walker, sought to re-litigate the issues
in an arbitration and rewrite the 2015 Award. Although
Ameriprise successfully convinced the 2017 Panel to do so
under the guise of the Dismissal Rule, FAA section 10(a)
(4) provided Walker with a right, albeit narrow, to judicial
review of whether the arbitrators exceeded their powers.
The Fifth Circuit’s threshold determination that the
FINRA Industry Code rules are not part of the parties’
arbitration agreement deprived him of that statutory right
and the due process it confers.
D. This Court has exercised its jurisdiction where, as
here, a circuit court’s holding obstructs access to
justice by depriving a claimant of an adjudication
on the merits.
The Fifth Circuit’s holding immunizes FINRA
arbitrators from judicial review of any claimant’s

18
challenge that a FINRA arbitration award exceeds the
powers delineated by FINRA rules. This holding also
deprives Walker of any arbitral adjudication of the merits
of his underlying claims against Ameriprise. When Walker
tried to bring three counterclaims against Ameriprise
in 2015, the FINRA arbitrators refused to adjudicate
them, prohibiting him from asserting them and divesting
themselves of jurisdiction to decide them. ROA.115, 144,
196, 267. But when he tried to bring those claims and 11
additional claims against Ameriprise in 2017, another
set of FINRA arbitrators dismissed them as fully and
finally adjudicated. ROA.202, 236. The merits of Walker’s
claims have never been decided by FINRA arbitrators.
And the merits of Walker’s section 10(a)(4) challenge will
not be subjected to appellate review unless this Court
exercises its jurisdiction, whether by authored opinion
or per curiam.
Beyond the injustice to Walker, the Fifth Circuit’s
holding may discourage some associated persons and
customers from even submitting their disputes to
arbitration in the first place. In the course of exceeding
their powers, the 2017 Panel absolved a billion-dollar
FINRA member from having to defend itself against an
associated person’s claims and fined the associated person
$15,000 in attorneys’ fees as a sanction for simply filing the
arbitration. ROA.237. If FINRA arbitrators are allowed
to exceed their powers without any judicial oversight
and sanction claimants in the process, it is reasonable to
expect that industry personnel and customers will think
twice before pursuing any relief against FINRA members,
regardless of the merits.
Over the past three years, industry personnel and
customers have filed an average of about 3,800 FINRA

19
arbitrations per year. FINRA, Dispute Resolution
Statistics, https://www.finra.org/arbitration-mediation/
dispute-resolution-statistics (last visited on Feb. 10, 2020).
But in the future, the Fifth Circuit’s decision may dissuade
some industry personnel and customers from arbitrating
claims against FINRA members at all, based on doubts
about whether arbitrators will exceed their powers under
the FINRA arbitration codes and uncertainty about
whether courts will review such excesses under FAA
section 10(a)(4).
When, as here, a circuit court erects a roadblock
that erroneously deprives litigants of their right to an
adjudication on the merits, this Court has exercised its
jurisdiction to restore the litigants’ access to justice. For
example:
• In Hetzel v. Prince William County., 523
U.S. 208, 208-10 (1998) (per curiam), the
Court granted review from an unpublished
Fourth Circuit order staying a jury trial
and directing the district court to enter
final judgment on damages. The Court
determined that the claimant had a right to
a new jury trial after rejecting remittitur.
Id. at 211-12.
• In Behrens v. Pelletier, 516 U.S. 299, 30205 (1996), the Court granted review of an
unpublished Ninth Circuit order dismissing
an appeal for lack of jurisdiction. The
Court held that the order being appealed
fell within a small class of immediately
appealable orders, requiring the circuit
court to review the merits. Id. at 305, 313.

20
• In Ankenbrandt v. Richards, 504 U.S. 689,
691-92 (1992), the Court granted review
of an unpublished Fifth Circuit opinion
affirming dismissal of a claim based on the
“domestic relations” exception to diversity
jurisdiction. The Court held that the
exception did not bar claims such as those
brought by Ankenbrandt. Id. at 704.
• In McDonald v. City of West Branch, 466
U.S. 284, 285-87 (1984), the Court granted
review of an unpublished Sixth Circuit
opinion reversing the district court’s
judgment on a jury verdict and holding the
claims at issue were barred by a previous
arbitration award under res judicata and
collateral estoppel. The Court held that
an award in a prior collective-bargaining
arbitration does not bar section 1983 claims.
Id. at 289-90.
• In Hughes v. Rowe, 449 U.S. 5, 6-7 (1980)
(per curiam), the Court granted review of an
unpublished Sixth Circuit order affirming
a district court’s dismissal of claims. The
Court held that the regulation on which the
district court relied did not justify dismissal
of the plaintiff’s civil rights claim. Id. at 11.
• In Brown v. Felsen, 442 U.S. 127, 128-31
(1979), the Court granted review of an
unpublished Tenth Circuit opinion affirming
a bankruptcy court’s use of res judicata to
determine dischargeability of a claim based

21
solely on the record in a previous state-court
lawsuit. The Court held that res judicata
did not apply, the dischargeability issues
had not been adjudicated in the state-court
lawsuit, and the petitioner was entitled to a
determination of those issues on the merits.
Id. at 138.
The Court should grant this petition to restore judicial
review of FINRA arbitration awards under section 10(a)
(4) for excesses of the arbitrators’ powers under FINRA
rules. Judicial review of arbitration awards under FAA
section 10 is essential to due process. See Doscher v.
Sea Port Group Secs., LLC, 832 F.3d 372, 386 (2d Cir.
2016) (holding that Congress provided for vacatur and
modification in FAA sections 10 and 11 on grounds
“sounding in basic fairness and due process”); Kyocera
Corp. v. Prudential-Bache Trade Servs., Inc., 341 F.3d 987,
998 (9th Cir. 2003) (holding that FAA’s narrow grounds for
vacatur are “designed to preserve due process” without
unnecessary public intrusion into private arbitrations);
cf. Hall St. Assocs., L.L.C. v. Mattel, Inc., 552 U.S. 576,
588 (2008) (explaining that FAA sections 9 through 11
substantiate a national policy favoring arbitration “with
just the limited review needed” to maintain arbitration’s
virtue of resolving disputes straightaway). Without review
under section 10(a)(4), a party has no recourse when an
arbitrator acts contrary to the terms on which the party
agreed to arbitrate in the first place. Depriving parties
of their right to review under section 10 “frustrate[s]
Congress’s attempt to ensure a minimum level of due
process” in arbitration. See In re Wal-Mart Wage & Hour
Employment Practices Litig., 737 F.3d 1262, 1268 (9th
Cir. 2013).

22
Judicial review under FAA section 10(a)(4) is even
more important to due process when, as here, an industry
compels individuals to forgo their right to a jury trial as a
condition of their work. The balance of interests reflected
in the Industry Code is an important component of
FINRA’s self-regulatory framework. As the organization
charged with comprehensive oversight of the securities
industry, FINRA counts among its purposes both the
“adjust[ment of] grievances between the public and
members and between members” and the “adopt[ion],
administ[ration], and enforce[ment of] rules of fair
practice.” UBS, 660 F.3d at 652. Allowing arbitrators to
exceed their powers under those rules, without even the
limited judicial oversight afforded by FAA section 10(a)
(4), undermines those purposes and weakens confidence
in the vibrant U.S. capital markets that those purposes
promote.
Compelling parties to arbitrate their securities
industry disputes under the FINRA Industry Code and
Customer Code promotes investor confidence and market
stability only when those arbitrations are conducted within
the constraints of FINRA rules. Industry personnel
and customers, FINRA arbitrators, and federal courts
benefit from the certainty that these rules are terms of
the mandatory arbitration agreement. Removing all doubt
as to this basic principle will restore the judicial review
afforded by FAA section 10(a)(4), and the resulting due
process, in the thousands of forced FINRA arbitrations
filed each year.

23
CONCLUSION
The Court should grant the petition.
Respectfully Submitted,
Brian D. Esenwein
Cotten Schmidt, LLP
100 Energy Way, Suite 2000
Fort Worth, Texas 76102
(817) 338-4500

Kirsten M. Castañeda
Counsel of Record
A lexander Dubose
& Jefferson LLP
4925 Greenville Avenue,
Suite 510
Dallas, Texas 75206
(214) 369-2358
kcastaneda@adjtlaw.com

Counsel for Petitioner
February 11, 2020

APPENDIX

1a
Appendix A — Appendix
opinionAof the UNITED
STATES COURT OF APPEALS FOR THE FIFTH
CIRCUIT, FILED OCTOBER 9, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-11641
JEREMY J. WALKER,
Plaintiff-Appellant,
v.
AMERIPRISE FINANCIAL SERVICES,
INCORPORATED,
Defendant-Appellee.
October 9, 2019, Filed
Appeal from the United States District Court
for the Northern District of Texas.
USDC No. 3:18-CV-1675.
Before CLEMENT, ELROD, and DUNCAN, Circuit
Judges.

2a
Appendix A
PER CURIAM:*
Jeremy Walker appeals the district court’s order
denying his petition to vacate an arbitration ruling and
granting Ameriprise’s motion to confirm the ruling. We
affirm.
I.
In 2015, Ameriprise Financial Services (“Ameriprise”)
and franchise owner Scott Miller sought a temporary
restraining order against former employee Jeremy
Walker to prevent him from utilizing confidential
customer information. Pursuant to the parties’ agreement,
Ameriprise and Miller instituted a Financial Industry
Regulatory Authority (“FINRA”) arbitration proceeding.
The 2015 FINRA panel arbitrated Ameriprise’s claims
against Walker for misappropriation of trade secrets,
breach of contract, breach of fiduciary duty, conversion,
unfair competition, and unjust enrichment.
During the 2015 arbitration, Walker sought permission
to amend his answer and assert counterclaims against
Ameriprise for civil conspiracy, fraud, and unjust
enrichment. Ameriprise opposed Walker’s request,
asserting that Walker was using the amendments as a
vehicle to re-litigate issues of liability dealt with at a
prior hearing. The panel denied Walker’s request to add
* Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Cir. R. 47.5.4.

3a
Appendix A
counterclaims and only allowed him to amend his answer
to “assert claims or defenses ... including in bar or in
mitigation of Claimants’ claims.” Walker nonetheless
argued his “counterclaims” at an August 2015 hearing
when the panel considered Ameriprise’s request for a
permanent injunction. The 2015 arbitration resulted in
an award against Walker and in favor of Ameriprise for
injunctive relief, compensatory damages and attorney
fees. Walker sought review of the arbitrator’s authority to
award attorney fees in state court. He did not challenge
any other aspects of the 2015 proceedings or final award.
In 2017, Walker filed a FINRA arbitration against
Ameriprise, primarily alleging he was improperly
enjoined by the 2015 arbitration. He also sought to recover
for the allegedly “false, fraudulent, and intentional conduct
of Ameriprise.” He set forth fourteen causes of action. A
second FINRA arbitration panel was convened.
Ameriprise moved to dismiss the arbitration under
FINRA Code of Arbitration Procedures for Industry
Disputes Rule 13504(a)(6). Rule 13504(a)(6)(C) provides
that dismissal may be granted when the arbitrators
find the “non-moving party previously brought a claim
regarding the same dispute against the same party
that was fully and finally adjudicated on the merits and
memorialized in an order, judgment, award, or decision.”
Both parties submitted briefing and evidence, after
which the panel held a hearing on Ameriprise’s motion.
The panel found the elements of Rule 13504(a)(6)(C) met
and unanimously dismissed the arbitration. The panel
ruling explained that dismissal was based on Walker’s
participation in the 2015 arbitration.

4a
Appendix A
Walker then filed a motion to vacate the 2017 ruling in
district court, arguing that vacatur was required because
the 2017 panel was “guilty of misconduct” under 9 U.S.C.
§ 10(a)(3) and “exceeded [its] powers” under 9 U.S.C.
§ 10(a)(4). The district court disagreed, denied Walker’s
motion on both grounds, and granted Ameriprise’s motion
to confirm the arbitration ruling. Walker appeals.
II.
“Appellate review of an order confirming an arbitration
award proceeds de novo, using the same standards that
apply to the district court.” 21st Century Fin. Servs.,
LLC v. Manchester Fin. Bank, 747 F.3d 331, 335 (5th
Cir. 2014). “We accept findings of fact that are not clearly
erroneous.” Hughes Training Inc. v. Cook, 254 F.3d 588,
592 (5th Cir. 2001).
Judicial review of an arbitration award is “exceedingly
deferential.” Petrofac, Inc. v. DynMcDermott Petroleum
Ops. Co., 687 F.3d 671, 674 (5th Cir. 2012). A party
seeking vacatur of an arbitration award “must clear a
high hurdle.” Stolt-Nielsen S.A. v. Animal Feeds Int’l
Corp., 559 U.S. 662, 671, 130 S. Ct. 1758, 176 L. Ed. 2d
605 (2010). “It is not enough . . . to show that the panel
committed an error—or even a serious error.” Id. “It is
only when an arbitrator strays from interpretation and
application of the agreement and effectively dispenses
his own brand of industrial justice that his decision may
be unenforceable.” Id. (alterations and internal quotation
marks omitted) (quoting Major League Baseball Players
Ass’n v. Garvey, 532 U.S. 504, 509, 121 S. Ct. 1724, 149 L.

5a
Appendix A
Ed. 2d 740 (2001)). “[A] court may not decline to enforce
an award simply because it disagrees with the arbitrator’s
legal reasoning.” Reed v. Fla. Metro. Univ., Inc., 681 F.3d
630, 637 (5th Cir. 2012), abrogated on other grounds by
Oxford Health Plans LLC v. Sutter, 569 U.S. 564, 133 S.
Ct. 2064, 186 L. Ed. 2d 113 (2013).
A court may vacate an arbitration award only for the
reasons set out in 9 U.S.C. § 10(a). Citigroup Glob. Mkts.,
Inc. v. Bacon, 562 F.3d 349, 350 (5th Cir. 2009). Under 9
U.S.C. § 10(a), vacatur is proper
(1) where the award was procured by corruption,
fraud, or undue means;
(2) where there was evident partiality or corruption
in the arbitrators, or either of them;
(3) where the arbitrators were guilty of misconduct in
refusing to postpone the hearing, upon sufficient
cause shown, or in refusing to hear evidence
pertinent and material to the controversy; or of
any other misbehavior by which the rights of any
party have been prejudiced; or
(4) where the arbitrators exceeded their powers,
or so imperfectly executed them that a mutual,
final, and definite award upon the subject matter
submitted was not made.
Walker seeks vacatur under § 10(a)(3) and (4) only.
First, he argues that vacatur is appropriate under

6a
Appendix A
§ 10(a)(3) because the panel was guilty of misconduct for
failing to allow him to present evidence and testimony.
We disagree. Walker asserts that “[i]t was incumbent on
the 2017 Panel to schedule and then conduct a hearing
to receive evidence and witness testimony on the merits
of Ameriprise’s Motion to Dismiss.” And he claims to be
aggrieved because he “reasonably expected the 2017 Panel
to deny the Motion to Dismiss.” But rather than point to
specific instances of misconduct, Walker makes a cursory
assertion that “the casual approach taken by the 2017
Panel . . . creates the impression that the universal sense
of justice was violated.”
Contrary to Walker’s argument, the record shows that
Walker was not prevented from presenting evidence or
testimony. All parties and the three arbitrators attended
an Initial Prehearing Conference where discovery
deadlines, Rule 13504 briefing rules, and hearing dates
were set. After Ameriprise filed for dismissal, Walker
filed both a preliminary and a supplemental response.
Ameriprise’s motion was heard via telephone conference
attended by the full arbitration panel and all parties and
counsel, who presented evidence for approximately one
hour. We see no indication that the panel refused to hear
material evidence, engaged in any other misconduct,
or otherwise deprived Walker of a fair hearing. “To
constitute misconduct requiring vacation of an award, an
error in the arbitrator’s determination must be one that is
not simply an error of law, but which so affects the rights
of a party that it may be said he was deprived of a fair
hearing.” Laws v. Morgan Stanley Dean Witter, 452 F.3d
398, 399 (5th Cir. 2006). Walker has not met his burden
for vacatur under § 10(a)(3).

7a
Appendix A
Second, Walker argues vacatur is appropriate under
§ 10(a)(4) because the 2017 panel “exceeded its powers”
by dismissing his claims under Rule 13504(a)(6) as fully
adjudicated by the 2015 panel. We again disagree. Walker’s
challenge rests on his assertion that the 2017 panel erred
in determining that the elements of Rule 13504(a)(6)
were met. But Walker’s argument fails to implicate the
standard for vacatur under section 10(a)(4). “An arbitrator
exceeds his powers [under § 10(a)(4)] if he acts contrary
to express contractual provisions.” YPF S.A. v. Apache
Overseas, Inc., 924 F.3d 815, 818 (5th Cir. 2019) (internal
quotation marks omitted). Walker does not argue that the
panel violated any express provisions of the arbitration
agreement, but only that it incorrectly applied Rule 13504.
Even if that were true, however, “[s]uch [alleged] legal
errors lie far outside the category of conduct embraced
by § 10(a)(4).” Cooper v. WestEnd Capital Mgmt., L.L.C.,
832 F.3d 534, 547 (5th Cir. 2016) (internal quotation marks
omitted) (quoting Beaird Indus., Inc. v. Local 2297, Int’l
Union, 404 F.3d 942, 946 (5th Cir. 2005)). Because Walker
fails even to argue that the panel violated the agreement
to arbitrate, see Petrofac, 687 F.3d at 674-75, he fails to
meet his burden for vacatur under § 10(a)(4).
In sum, Walker has not identified any reason why the
district court erred in denying his motion to vacate and
in confirming the arbitration ruling.
AFFIRMED

8a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF TEXAS, DALLAS DIVISION
FILED NOVEMBER 29, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil No. 3:18-cv-01675-M
JEREMY J. WALKER,
Petitioner,
v.
AMERIPRISE FINANCIAL SERVICES, INC.,
Respondent.
ORDER
Petitioner Jeremy Walker requests that this Court
vacate a 2017 arbitration award by a FINRA arbitration
panel (“2017 Panel”) in favor of Respondent Ameriprise
Financial Services, Inc. Walker argues that the 2017 Panel
is “guilty of misconduct” and “exceeded [its] powers” as
described in 9 U.S.C. §§ 10(a)(3) and (4) of the Federal
Arbitration Act (“FAA”). Because Walker fails to show
that grounds for vacatur exist under §§ 10(a)(3) and (4), the
Court denies his Petition to Vacate Arbitration Award and
grants Ameriprise’s Cross-Motion to Confirm Arbitration
Award.

9a
Appendix B
I.

Background

In May 2015, Walker resigned from his position
as an Associate Financial Advisor with Scott Miller, a
franchisee of Ameriprise. (ECF No. 2 ¶¶ 1, 3). In June
2015, Ameriprise and Miller filed suit against Walker in
state court, alleging that Walker had taken confidential
customer information from Ameriprise when he resigned
from Miller’s business, and used it to solicit customers to
a competing business. (ECF No. 2-2, Ex. A at 001). The
state court entered a TRO, restraining Walker from using
certain Ameriprise customer information and contacting
specific Ameriprise customers. (Id.).
Pursuant to the parties’ Associate Financial Advisor
Agreement, Ameriprise and Miller instituted a FINRA
arbitration proceeding (“2015 Panel”), requesting
injunctive relief. After a hearing on June 22, 2015, the
2015 Panel entered an order enjoining Walker from using
specific Ameriprise customer information. (ECF No. 2-7,
Ex. F at 002). The order set a hearing for August 11, 2015,
which was “limited to the parties’ request for damages,
costs, and attorneys’ fees.” (Id. at 003).
Before the date of the scheduled August hearing,
Walker requested that the 2015 Panel allow Walker to
amend his Answering Statement to assert counterclaims
against Ameriprise for unjust enrichment, fraud, and civil
conspiracy (“2015 Counterclaims”). (ECF No. 2-8, Ex. G
at 019). Ameriprise filed a Motion for Protection, asking
the 2015 Panel to confirm that the August hearing would
be limited to issues of damages and attorneys’ fees related
to the injunction. (ECF No. 2-9, Ex. H at 002). Ameriprise

10a
Appendix B
argued that Walker’s 2015 Counterclaims were an attempt
to “re-characterize” and “re-litigate” issues and defenses
already heard and decided at the injunction hearing. (Id.).
The 2015 Panel conducted a telephonic hearing, and
then entered an order (1) stating that the August hearing
would be “limited to evidence and argument relevant to
[ ] damages,” (2) granting Walker leave to “amend his
Answering Statement and assert claims or defenses as set
out therein including in bar or in mitigation of [Ameriprise
and Miller’s] claims,” and (3) denying Walker leave to
amend his Answering Statement to include the 2015
Counterclaims. (ECF No. 2-10, Ex I at 002).
After the August hearing, the 2015 Panel awarded
Miller damages and attorneys’ fees. (ECF No. 2-13, Ex. L).
The 2015 Award confirms that “[Walker] was permitted
to amend his Answer to assert claims or defenses in
bar or in mitigation of [Ameriprise and Miller’s] claims.
[Walker] was not permitted to amend his Answer to assert
counterclaims.” (Id. at 003).
In May 2017, Walker filed a FINRA arbitration
proceeding asserting fourteen claims against Ameriprise,
including claims for unjust enrichment, fraud, and civil
conspiracy (“2017 Claims”). (ECF No. 2-14, Ex. M at App.
052). Because the 2015 Arbitration was closed, FINRA
empaneled three new arbitrators to hear Walker’s 2017
Claims.
Ameriprise filed a Motion to Dismiss under FINRA
Rule 13504(a)(6)(C), which allows for dismissal if “the nonmoving party previously brought a claim regarding the

11a
Appendix B
same dispute against the same party that was fully and
finally adjudicated on the merits and memorialized in an
order, judgment, award, or decision.” (ECF No. 2-15, Ex.
N). The 2017 Panel held a telephonic hearing on the Motion
to Dismiss on March 22, 2018. (ECF No. 2 ¶ 19; ECF No.
9-1, Ex. 6). On April 6, 2018, the 2017 Panel entered an
award dismissing all fourteen of Walker’s 2017 Claims
under Rule 13504(a)(6)(C). (ECF No. 2-18, Ex. Q at 002).
On June 26, 2018, Walker filed the instant Petition
to Vacate Arbitration Award, requesting that the Court
vacate the 2017 Award and remand the case to a new
FINRA arbitration panel. (ECF No. 2 at 7). Walker argues
that vacatur is required because the 2017 Panel is “guilty
of misconduct” under 9 U.S.C. § 10(a)(3) and “exceeded
[its] powers” under 9 U.S.C. § 10(a)(4). In its Response,
Ameriprise requests that the Court confirm the 2017
Award and grant Ameriprise’s request for attorneys’
fees and costs incurred as a result of defending Walker’s
Petition to Vacate Arbitration Award. (ECF No. 5). On
November 27, 2018, the Court held a hearing on Walker’s
Petition to Vacate Arbitration Award and Ameriprise’s
Cross-Motion to Confirm Arbitration Award.
II. Legal Standard
Under the FAA, a reviewing court must confirm an
arbitration award unless grounds exist to vacate, modify,
or correct its terms. 9 U.S.C. § 9. A court may only vacate
an arbitration award:
(1) where the award was procured by corruption,
fraud, or undue means;

12a
Appendix B
(2) where there was evident partiality or
corruption in the arbitrators, or either of them;
(3) where the arbitrators were guilty of
misconduct in refusing to postpone the hearing,
upon sufficient cause shown, or in refusing
to hear evidence pertinent and material to
the controversy; or of any other misbehavior
by which the rights of any party have been
prejudiced; or
(4) where the arbitrators exceeded their powers,
or so imperfectly executed them that a mutual,
final, and definite award upon the subject
matter submitted was not made.
Id. § 10(a)(1)–(4). See Citigroup Global Mkts., Inc. v.
Bacon, 562 F.3d 349, 358 (5th Cir. 2009) (holding there are
no longer nonstatutory grounds for vacating arbitration
awards).
Courts are not to conduct a review of the merits of
an arbitrator’s decision. Householder Grp. v. Caughran,
354 F. App’x 848, 851 (5th Cir. 2009); see also Stolt-Nielsen
S.A. v. AnimalFeeds Int’l Corp., 559 U.S. 662, 671 (2010)
(“It is not enough for [a party seeking vacatur] to show
that the [arbitration] panel committed an error—or even
a serious error.”); Reed v. Fla. Metro. Univ., Inc., 681
F.3d 630, 637 (5th Cir. 2012) (“[A] court may not decline
to enforce an award simply because it disagrees with the
arbitrator’s legal reasons.”); Pfeifle v. Chemoil Corp., 73
F. App’x 720, 722–23 (5th Cir. 2003) (“[A]n arbitrator’s

13a
Appendix B
erroneous interpretation of law or facts is not a basis for
vacatur of an award.”).
Judicial review of an arbitration award is “exceedingly
deferential.” Petrofac, Inc. v. DynMcDermott Petrol.
Operations Co., 687 F.3d 671, 674 (5th Cir. 2012) (internal
citation omitted); Stolt.Nielsen S.A., 559 U.S. at 671
(A party seeking vacatur of an arbitration award “must
clear a high hurdle.”). Courts consistently describe the
scope of judicial review of arbitration awards as “among
the narrowest known to the law.” Pfeifle, 73 F. App’x at
723 (internal citation and quotation omitted). The party
seeking to vacate an arbitration award has the burden
of proof, and the court must resolve any doubts or
uncertainties in favor of upholding the award. Weber v.
Merrill Lynch Pierce Fenner & Smith, Inc., 455 F. Supp.
2d 545, 549 (N.D. Tex. 2006); Brabham v. A.G. Edwards
& Sons, Inc., 376 F.3d 377, 385 (5th Cir. 2004).
III.

Analysis
A.

Petition to Vacate Arbitration Award and
Cross-Motion to Confirm Arbitration
Award

Throughout his briefing and at the hearing before
this Court, Walker argued that because neither the 2015
nor the 2017 Panels adjudicated the merits of his 2015
Counterclaims or his 2017 Claims, he was denied his “day
in court.” See, e.g., (ECF 2 at 11, 17). However, Walker
did not provide the Court with a transcript of the June
2015 hearing on Ameriprise’s request for injunctive relief.
Thus, there is no factual evidence that the facts underlying

14a
Appendix B
Walker’s 2015 Counterclaims and 2017 Claims were not
actually adjudicated by the 2015 Panel.
In any case, Walker has not met his burden to show
that the 2017 Award should be vacated under §§ 10(a)
(3) or (4) of the FAA. Walker asserts that the 2017 Panel
is “guilty of misconduct” under § 10(a)(3) because it
“refused to hear evidence pertinent and material to
the controversy,” and did not allow Walker to have a
“fundamentally fair hearing.” (ECF No. 2 at 12, 20). The
record shows that the Scheduling Order for the 2017
Arbitration required the parties to respond to discovery
no later than March 15, 2018. (ECF No. 6 at APP 120).
Though Ameriprise’s Motion to Dismiss was filed on
January 1, 2018, the 2017 Panel held a telephonic hearing
on the Motion to Dismiss on March 22, 2018, which allowed
Walker sufficient time to conduct discovery related to his
2017 Claims. Walker also filed a Preliminary Reply in
Opposition to the Motion to Dismiss (Id. at APP 125–47)
and a Supplemental Reply to the Motion to Dismiss (Id.
at APP 148–414). Walker presented no evidence that the
2017 Panel failed to consider his pleadings or arguments
regarding the Motion to Dismiss. The Court finds that
the 2017 Panel was not guilty of misconduct or any other
misbehavior as described by § 10(a)(3).
Walker claims that the 2017 Panel “exceeded [its]
powers” under § 10(a)(4). Arbitrators exceed their powers
if they act contrary to express contractual provisions
governing the arbitration. 21st Fin. Services, L.L.C.
v. Manchester Fin. Bank, 747 F.3d 331, 336 (5th Cir.
2014). Walker does not dispute that the 2017 Panel had

15a
Appendix B
the authority to consider his 2017 Claims and to decide
Ameriprise’s Motion to Dismiss. Instead, Walker argues
that (1) his 2017 Claims were not brought before the 2015
Panel; (2) there was never a full and final adjudication on
the merits of Walker’s 2017 Claims; and (3) the full and
final adjudication on the merits of Walker’s 2017 Claims
have not been memorialized in any order, judgment,
award, or decision. (ECF No. 2 at 14–18). At its core,
Walker’s argument is that the 2017 Panel exceeded its
authority because it incorrectly applied Rule 13504(a)(6)
(C) in dismissing the 2017 Claims. This type of challenge
does not fall within § 10(a)(4) and does not otherwise
constitute a basis for vacatur, as it essentially argues that
the Court should review the merits of the 2017 Panel’s
decision. Householder Grp., 354 F. App’x at 851; see also
Stolt-Nielsen S.A., 559 U.S. at 671; Reed, 681 F.3d at 637;
Pfeifle, 73 F. App’x at 722–23.
Because Walker has failed to establish any legitimate
g rounds for vacating the 2017 Award, the Court
DENIES Walker’s Petition to Vacate Arbitration Award
and GRANTS Ameriprise’s Cross-Motion to Confirm
Arbitration Award.
B. Attorneys’ Fees
Ameriprise seeks attorneys’ fees and expenses
incurred as a result of defending against Walker’s Petition
to Vacate Arbitration Award.
“[W]hen a refusal to abide by an arbitration decision
is without justification, and judicial enforcement is

16a
Appendix B
necessary, the court should award the party seeking
enforcement reasonable costs and attorneys’ fees incurred
in that effort.” Int’l Ass’n of Machinists & Aerospace
Workers, Dist. 776 v. Texas Steel Co., 639 F.2d 279, 284
(5th Cir. 1981); see also Bruce Hardwood Floors, Div. of
Triangle Pac. Corp. v. UBC, S. Council of Indus. Workers,
Local Union No. 2713, 103 F.3d 449, 453 (5th Cir. 1997)
(“An award of attorneys’ fees is permitted when a party
has refused to abide by an arbitration decision ‘without
justification.’”); NetKnowledge Techs., L.L.C. v. Rapid
Transmit Techs., 2007 WL 518548 at *9 (N.D. Tex., Feb.
20, 2007) (Lynn, J.) (“A district court may award attorney’s
fees against a party making challenges to arbitration
awards that are not cognizable under the FAA, are
frivolous, or are without legal justification.”). A challenge
is without justification if it “go[es] to the ‘intrinsic merits’
of a dispute.” Delek Ref., Ltd. v. Local 202, United Steel,
Paper & Forestry, Rubber, Mfg., Energy, Allied Indus.
& Serv. Workers Int’l Union, AFLCIO, 891 F.3d 566, 573
(5th Cir. 2018). “[W]hen parties have agreed to arbitrate a
dispute, a subsequent court challenge to the merits is not
justified even when that question is close because going to
court is at odds with the parties’ agreement to be bound
by the arbitrator’s decision.” Id. at 573–74.
Because Walker challenged the merits of the 2017
Panel’s decision to grant Ameriprise’s Motion to Dismiss,
the Court finds that Ameriprise is entitled to reasonable
and necessary attorneys’ fees and costs. Ameriprise’s
counsel, Dayna Blair, filed a declaration stating that she
spent 29.6 hours at a rate of $345 per hour defending
Walker’s Petition to Vacate Arbitration Award, for a total
of $10,212. (ECF No. 11 ¶ 4). Ms. Blair also states that

17a
Appendix B
Ameriprise would incur $3,450 in attorneys’ fees (10 hours
of Ms. Blair’s time at $345 per hour) and additional airfare
and ground transportation expenses in connection with
Ms. Blair’s attendance at the hearing before this Court.
(Id. ¶ 8).
The Court finds that Ms. Blair’s rate is fair and
reasonable in Dallas County, Texas. The Court finds that
$13,662 in attorneys’ fees is fair, reasonable, and necessary
based on the hourly rate applied and the nature of the
services described in Ms. Blair’s declaration. Because
Ameriprise provides no legal support for its request for
transportation expenses, that request is denied.
IV. Conclusion
For the reasons stated above,
IT IS ORDERED that Walker’s Petition to Vacate
A rbitration Award (ECF No. 1) is DENIED and
Ameriprise’s Cross-Motion to Confirm Arbitration Award
(ECF No. 5) is GRANTED.
SO ORDERED.
November 29, 2018.
/s/				
BARBARA M. G. LYNN
CHIEF JUDGE

18a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE FIFTH CIRCUIT, FILED NOVEMBER 13, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-11641
JEREMY J. WALKER,
Plaintiff- Appellant,
v.
AMERIPRISE FINANCIAL
SERVICES, INCORPORATED,
Defendant - Appellee.
Appeal from the United States District Court
for the Northern District of Texas
ON PETITION FOR REHEARING
AND REHEARING EN BANC
(Opinion October 9, 2019, 5 Cir.,
F.3d 		
)

,

Before CLEMENT, ELROD, and DUNCAN, Circuit
Judges.

19a
Appendix C
PER CURIAM:
(ü) The Petition for Rehearing is DENIED and no
member of this panel nor judge in regular active
service on the court having requested that the court
be polled on Rehearing En Bane, (Fed. R. App. P. and
5TH Cir. R. 35) the Petition for Rehearing En Bane
is also DENIED.
( ) The Petition for Rehearing is DENIED and the
court having been polled at the request of one of the
members of the court and a majority of the judges
who are in regular active service and not disqualified
not having voted in favor, (Fed. R. App. P. and 5TH
Cir. R. 35) the Petition for Rehearing En Bane is also
DENIED.
( ) A member of the court in active service having
requested a poll on the reconsideration of this cause en
banc, and a majority of the judges in active service and
not disqualified not having voted in favor, Rehearing
En Banc is DENIED.
ENTERED FOR THE COURT
/s/				
UNITED STATES CIRCUIT
JUDGE

20a
Appendix C
United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
TEL. 504-310-7700
CLERK
600 S. MAESTRI PLACE, Suite 115
NEW ORLEANS, LA 70130
November 13, 2019
MEMORANDUM TO COUNSEL OR PARTIES LISTED
BELOW:
No. 18-11641 Jeremy Walker v. Ameriprise Fincl Svc Inc.
USDC No. 3:18-CV-1675
Enclosed is an order entered in this case.
See FRAP and Local Rules 41 for stay of the mandate.
Sincerely,
LYLE W. CAYCE, Clerk
By: 			
Peter A. Conners, Deputy Clerk
504-310-7685
Ms. Danya Wayland Blair
Ms. Kirsten Marisol Castaneda
Mr. Brian Esenwein
Mr. Andrew DeRoy Lewis
Mr. Nicholas David Stepp

21a
Appendix
D
APPENDIX
D — RELEVANT
STATUTORY PROVISIONS
13504. Motions to Dismiss
(a) Motions to Dismiss Prior to Conclusion of Case in
Chief
(1) Motions to dismiss a claim prior to the conclusion of
a party’s case in chief are discouraged in arbitration.
(2) Motions under this rule must be made in writing,
and must be filed separately from the answer, and only
after the answer is filed.
(3) Unless the parties agree or the panel determines
otherwise, parties must serve motions under this rule
at least 60 days before a scheduled hearing, and parties
have 45 days to respond to the motion. Moving parties
may reply to responses to motions. Any such reply
must be made within 5 days of receipt of a response.
(4) Motions under this rule will be decided by the full
panel.
(5) The panel may not grant a motion under this
rule unless an in-person or telephonic prehearing
conference on the motion is held or waived by the
parties. Prehearing conferences to consider motions
under this rule will be recorded as set forth in Rule
13606.
(6) The panel cannot act upon a motion to dismiss a
party or claim under paragraph (a) of this rule, unless
the panel determines that:

22a
Appendix D
(A) the non-moving party previously released
the claim(s) in dispute by a signed settlement
agreement and/or written release;
(B) the moving party was not associated with the
account(s), security(ies), or conduct at issue; or
(C) The non-moving party previously brought a
claim regarding the same dispute against the same
party that was fully and finally adjudicated on the
merits and memorialized in an order, judgment,
award, or decision.
(7) If the panel grants a motion under this rule (in
whole or part), the decision must be unanimous, and
must be accompanied by a written explanation.
(8) If the panel denies a motion under this rule, the
moving party may not re-file the denied motion, unless
specifically permitted by panel order.
(9) If the panel denies a motion under this rule, the
panel must assess forum fees associated with hearings
on the motion against the moving party.
(10) If the panel deems frivolous a motion filed under
this rule, the panel must also award reasonable costs
and attorneys’ fees to any party that opposed the
motion.
(11) The panel also may issue other sanctions under
Rule 13212 if it determines that a party filed a motion
under this rule in bad faith.

23a
Appendix D
(b) Motions to Dismiss After Conclusion of Case in
Chief
A motion to dismiss made after the conclusion of a party’s
case in chief is not subject to the procedures set forth in
paragraph (a).
(c) Motions to Dismiss Based on Eligibility
A motion to dismiss based on eligibility filed under Rule
13206 will be governed by that rule.
(d) Motions to Dismiss Based on Failure to Comply
with Code or Panel Order
A motion to dismiss based on failure to comply with any
provision in the Code, or any order of the panel or single
arbitrator filed under Rule 13212 will be governed by
that rule.
(e) Motions to Dismiss Based on Discovery Abuse
A motion to dismiss based on discovery abuse filed under
Rule 13511 will be governed by that rule.

